                                                 --
 -
                     CLOSEOUT FOR M93030019

        This case was brouqht to O I G on September 9. 1992 bv
-4              a    n      d    *   pro
            Program of the Division




 -
                         They had been informed by                 of    -
       -              he complainant) that                     of the
                            (the subject) had been reprimanded by his        1
  university for unspecified misconduct having to do with a                  1
   collaboration with a graduate student. The program officers also          1
   informed OIG that the subject -had    submitted a proposal to NSF
                  entitled
                                      -               -                      I
 )            that hee
                     n
                     o
                     -o
                      t
                      -
                      re
                       t
                       a
                       l                                       of the        I
  program officers that a graduate student had raised "a stinku about
   it.
                                                                                 I
      O I G contacted the subject, who supplied us with a letter from
 his Dean and department chair indicating that his university had
 conducted an inquiry into an allegation of "academic fraud" and
 determined that the allegation lacked substance. The university's
 general counsel has also informed us that the university has not
 found the subject to have committed academic fraud in connection
 with an NSF proposal or award.
      O I G decided that what we knew about the circumstances
 surrounding the withdrawal of the proposal justified an inquiry
 into whether there was misconduct involved in its preparation or
 submission.     O I G examined (1) the proposal, (2) the graduate
 student's written complaint that prompted the University's inquiry,
 and (3) the University's inquiry report. These documents raised
 three issues of possible misconduct in connection with the NSF
 proposal.     The first was whether the subject had committed
 misconduct in claiming authorship of either the proposal or the
 conference paper on which the proposal was based. The second was
 whether the subject had committed misconduct by claiming first
 authorship of the paper. The third was whether the subject had
 committed misconduct in misrepresenting either the authorship of
 the conference paper that had formed the basis of the proposal or
 the graduate student's projected role in the research.
      With regard to the first issue, O I G determined that, by the
 graduate student's own account, the subject played an active role
 in developing the paper on which the proposal was based. O I G
 concluded that the subject had a reasonable claim to authorship
 credit and did not commit misconduct by claiming it. The student

                              Page 1 of 3                      M93- 19
                    CLOSEOUT FOR M93030019

maintained only that he himself did the bulk of the work and
generated the important and novel ideas. These claims, if true,
would not necessarily mean that an active collaborator did not
deserve authorship credit for the final product. OIG concluded
that the subject's joint authorship of the conference paper
entitled him to propose the research to N S F as long as he
acknowledged the graduate student's role in the development of the
paper on which the proposal was based.
      With regard to the second issue, OIG concluded that there was
evidence that the allocation of authorship credit for the original
paper was questionable and that the subject, in keeping with the
norms of his discipline, might have been more appropriately listed
as second author. OIG decided that the subject's decision to make
himself first author, even if incorrect, was not misconduct under
N S F jurisdiction because it was made before the paper had any
connection to an N S F proposal.    Having decided that we lacked
jurisdiction, OIG therefore did not consider whether the subject ' s
claim of first authorship was in fact incorrect or whether, if
incorrect, it was so inappropriate as to constitute a serious
deviation from accepted practice in the relevant scientific
community.
     With regard to the third issue, OIG determined that there was
no misrepresentation in the N S F proposal. The proposal lists the
subject as the sole P.I. and contains a footnote on the first page
explaining that it is based on a paper co-authored with the
graduate student and presented at a professional meeting. The
footnote goes on to state that the graduate student would be the
subject's assistant if the proposal were funded. The footnote
accurately represented how authorship credit was apportioned when
the'paperwas presented. The footnote also accurately represented
the subject's future plan. When the proposal was submitted, the
subject did in fact expect the graduate student to be his assistant
on the project. When the collaboration dissolved, the subject
withdrew the proposal. At that time, it would have been
unreasonable and unfair to pursue it without the collaborator who
had made a major contribution to shaping the research.
     In making his complaint to the university, the graduate
student asked it to intercede to prevent the subject from
"downplaying his significanceu as a contributor to the project in
the future. After deciding that this was not a matter of "academic
fraud,I1 the University proceeded to help protect the graduate
student's intellectual property interest and to settle the dispute
between collaborators. Universities are empowered to take action
against injustices that do not rise to the level of misconduct in
science. In this instance, the University, after resolving that

                             Page 2 of 3                      M93-19
                    CLOSEOUT FOR M93030019

this incident was not misconduct in science ("academic fraud"),
appears to have tried to restore equity by mediating the authorship
dispute.
     OIG concluded that this case does not raise issues of
misconduct that have substance in connection with an NSF proposal
or award. The case is closed and no further action will be taken.




cc:   Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                             Page 3 of 3
